FDIC Office of Inspector General Press Release: Charges Brought in $7.4 Million Continuing Financial Crimes Enterprise That Targeted Northern Virginia Hispanic Community
News Release
United States Department of Justice
Eastern District of Virginia
United States Attorney's Office
Dana J. Boente, Acting United States Attorney
FOR IMMEDIATE RELEASE
November 22, 2013
Charges Brought in $7.4 Million Continuing Financial Crimes Enterprise That Targeted Northern Virginia Hispanic Community
ALEXANDRIA, Va. â A twenty-five count superseding indictment was unsealed today charging five defendantsâRosita Vilchez, 39, of Lima, Peru; Armando Pino, 53, of Centerville, Va., currently in Peru; Edgar Vilchez, 38, of Manassas, Va.; Lorene Chittenden, 57, of Centerville, Va.; and Rocio Benavides, 28, of Manassas, Va.âwith conspiracy to commit bank fraud and wire fraud affecting a financial institution and operating a continuing financial crimes enterprise.  According to the indictment, between August 2005 and August 2007, the conspiracy generated nearly $7.4 million in fraudulent proceeds.
Dana J. Boente, Acting United States Attorney for the Eastern District of Virginia; Valerie Parlave, Assistant Director in Charge of the FBIâs Washington Field Office; and Fred W. Gibson, Acting Inspector General of the Federal Deposit Insurance Corporation, made the announcement.
The indictment alleges that Rosita Vilchez and her brother, Armando Pino, operated a real estate firm (Vilchez & Associates), a title insurance company (Pino Title), and the branch of a loan brokerage business (Mount Vernon Capital Corporation) in Manassas, Va., as a continuing financial crimes enterprise.  According to the indictment, the defendants and their co-conspirators submitted fraudulent loan documents that falsified their real estate clientsâ income, employment, and assets so that they could obtain loans to buy property through Vilchez & Associates, which received commissions of as much as six percent of the selling price of every home.  Many of these transactions involved loans that allegedly were originated fraudulently by Lorene Chittenden, a loan officer who, according to the indictment, received thousands of dollars in loan commissions as a result of the fraud.
The indictment also alleges that the defendants targeted Hispanic clients who were not proficient in spoken or written English and who therefore often were unable to read and were unaware of the false statements made on the loan documents submitted to the lenders on their behalf.  According to court filings, the fraudulent loan applications made it possible for the borrowers to qualify for loans they could not afford to repay.  Most of these borrowers later lost their homes to foreclosure.
Rosita Vilchez originally was indicted on September 6, 2012, and she remains a fugitive in Peru.  On October 31, 2013, the FBI announced a reward of up to $6,000, or up to 15,000 Peruvian soles, for information leading directly to the location and arrest of Rosita Vilchez.  Additional information regarding Rosita Vilchez, including a poster with her picture, is available on the FBIâs website at http://www.fbi.gov/wanted/wcc/rosita-vilchez/view.
This case was investigated by the FBIâs Washington Field Office and the FDICâs Office of Inspector General.  Assistant United States Attorney James P. Gillis is prosecuting the case on behalf of the United States.
Criminal indictments are only charges and not evidence of guilt.  A defendant is presumed to be innocent until and unless proven guilty.
A copy of this press release may be found on the website of the United States Attorneyâs Office for the Eastern District of Virginia at http://www.justice.gov/usao/vae.  Related court documents and information may be found on the website of the District Court for the Eastern District of Virginia at http://www.vaed.uscourts.gov or on https://pcl.uscourts.gov.
# # #